C'OCKLE

2311 Douglas Street CA E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B at eas contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-37

ALEX M. AZAR, II, SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL.,
Petitioners,

v.

CHARLES GRESHAM, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN SUPPORT FOR
THE NEW HAMPSHIRE DEPARTMENT OF HEALTH AND HUMAN SERVICES in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5919 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 18th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm, Exp. September 5, 2023

 

GEWERAL HOTARY-State of Nebraska
f RENEE J. GOSS Kone. 9. doa Odea he Chi

Notary Public Affiant 40523
